       Management Letter 

    Related to the Audit of the 

 Broadcasting Board of Governors 

2008 and 2007 Financiai Statements 




       AUD/IB-09-12, March 2009




  Leonard G. Birnbaum and Company, LLP 

        Certified Public Accountants 

           6285 Franconia Road 

        Alexandria, Virginia 22310 

                           LEONARD G. BIRNBAUM                       AND    COMPANY, LLP
                                           CERTIFIED PUBLIC ACCOUNTANTS
                                                    WASHINGTON OFFICE 

                                                    6285 FRANCONIA ROAD 

                                                 ALEXANDRIA, VA 22310-2510 



                                                        (703) 922-7622
                                                     FAX: (703) 922-8256
LESLIE A. LEIPER                                                                                        WASHINGTON, D.C.

LEONARD G. BIRNBAUM                                                                                  SUMMIT, NEW JERSEY

DAVID SAKOFS                                                                                     REDWOOD CITY, CALIFORNIA

CAROL A. SCHNEIDER
DORA M. CLARKE
                                                 November 14, 2008

      To the Chief Financial Officer
      Broadcasting Board of Governors:

      We have audited the financial statements of the Broadcasting Board of Governors (BBG) for the
      years ended September 30, 2008 and 2007, and have issued our report thereon dated November
      ]4,2008 (AUD/FM-09-03). In planning and perfonning our audit ofBBG's financial
      statements, we considered BBG's internal 'control over financial reporting to detennine our
      auditing procedures for the purpose of expressing our opinion on the financial statements and not
      to provide assurance on internal control. We have not considered internal control since the date
      of our report.

      During our audit, we noted certain matters involving internal control over financial reporting that
      we considered to be significant deficiencies under the standards established by the American
      Institute of Certified Public Accountants. We reported those deficiencies in the report
      referenced.
      Our audit procedures were designed primarily to enable us to fonn an opinion on the financial
      statements and therefore may not identify all weaknesses in internal control that may exist.
      However, we would like to take this opportunity to use our knowledge of BBG gained during the
      audit to provide comments and suggestions that we hope will be useful to you. Although not
      considered to be significant deficiencies, we noted certain matters involving internal control and
      other operational matters that are presented in the attachment to this letter for your consideration.
      These observations are intended to improve BBG's internal control or result in other operating
      efficiencies.

       Comments by BBG management on this report are presented as Attachment 2.

       Very truly yours,

  ~~ ~ JL,~~ ~ ~\' 

       Leonard G. Birnbaum and Company, LLP           "'.~
       Attachments: As stated.




                             MEMBERS OF THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS
                                                                                    Attachment I
                                                                                      Page I of3
                                Management Letter Related to the 

                          Audit of the Broadcasting Board of Governors 

                              2008 and 2007 Financial Statements 


                                Observations and Conclusions

1. 	 Property, Plant, and Equipment

   During our interim testing of property, plant, and equipment, we found numerous instances in
   which the Broadcasting Board of Governors (BBG) had not recorded property acquisitions
   and disposals in a timely manner. The majority of the errors represented acquisitions and
   disposals that had occurred in prior years but that had been recorded as current-year activity.
   BBG corrected most of the errors we identified during our interim testing. However, we
   remain concerned about the controls over entering property data into the system. In addition,
   the asset management system is not integrated with the general ledger.

   We noted several instances in which depreciation expense was inaccurately calculated and
   recorded because of differences in useful life, acquisition cost, and dates between the asset
   management system and supporting documents for property items. We also noted instances
   in which supporting documents for property disposals could not be located.

   We recommend that BBG

   • 	 improve its controls over the timeliness ofrecording property data,
   • 	 develop an interface between the asset management system and the general ledger,
   • 	 ensure that accurate and complete documentation related to capital assets is maintained,
       and
   • 	 develop testing procedures to identify potential errors in the asset management system.

2. 	 Undelivered Orders

   Our testing of undelivered orders identified a projected overstatement of more than $6
   million because some obligations could not be supported or were no longer needed. For
   instance, we found a number of travel orders where the travel had been completed for over 6
   months.

   We recommend that BBG review obligations in a structured manner and on a regular basis
   to permit deobligation and reprogramming ofunused amounts.

3. 	 Govemment Purchase Cards

   Fourteen of the 20 cardholders sampled either had purchases with date errors or incomplete
   purchase logs or had dates that were not arranged chronologically in the purchase log.

   Three cardholders' individual statements of account were approved by an official who was
   neither the designated Authorizing Officer/Certifying Officer nor the alternate Authorizing
   Officer/Certifying Officer.
                                                                                  Attachment 1
                                                                                    Page 2 of3
   Two cardholders' purchase logs were not approved and signed by either the designated
   Authorizing Officer/Certifying Officer or the alternate Authorizing Officer/Certifying
   Officer.

   We recommend that BBG institute effective internal control and oversight procedures to
   deter and discover erroneous use ojthe government purchase card.

4. Grants Management

   Our review of Forms SF-272, Federal Cash Transaction Reports, for Radio Free Europe,
   Middle East Broadcasting Network, and Radio Free Asia as of December 31, 2007, and
   March 31, 2008, disclosed instances of noncompliance with provisions of Office of
   Management and Budget (OMB) Circular A-1l0, Uniform Administrative Requirementsjor
   Grants and Agreements With Institutions ojHigher Education, Hospitals, and Other Non­
   Profit Organizations. The grantees consistently maintained cash on hand in excess of 1
   week's activities, as permitted by the Circular. Specifically, grantees maintained from 3
   weeks to over 2 months of cash on hand. We also noted an instance in which the SF-272 for
   one grantee was not submitted in a timely manner and in accordance with OMB Circular A­
   110.

   We recommend that BBG strengthen its policies and procedures regarding the oversight of
   grantees 'financial activity to ensure full compliance with OMB Circular A-J 10.

5. Information Security

   The annual Federal Information Security Management Act report submitted by the Office of
   Inspector General (OIG) stated that while BBG's information security and privacy policies,
   procedures, and practices are substantively adequate and effective, they do not yet fully
   comply with some statutory provisions and implementing regulations.
    We recommend that BBG continue to allocate stafftime and funding to bring the agency into
   full compliance, as directed by OIG.

6. Payroll Compliance

   Although we determined that BBG was in substantial compliance with the Fair Labor
   Standards Act, Civil Service Retirement Act, Federal Employees Retirement System, Title 5,
   Federal Employees Health Benefits Act of 1959, and Federal Employees' Group Life
   Insurance Act of 1980, testing disclosed discrepancies in contributions and withholdings and
   General Schedule hourly rates.

   We recommend that BBG take steps to ensure compliance with payroll-related legislation.

7. Non-Personnel Expenses

   Our testing of non-personnel expenses identified a projected overstatement of approximately
   $5 million attributable to prior-year expenses being recorded in the current year.
   We recommend that BBG take steps to correctly record expenses in the proper period.
                                                                                                   Attachment 1
                                                                                                     Page 3 of3



       Table 1: Follow-up of Observations From the FY 2007 Management Letter


  Observation                                                              FY 2008               FY 2008
                                 FY 2007 Observation
   Number                                                                   Status               Comment
                                                                                                   --­

L Property, Plant,    BBG had not recorded property acquisitions            Open             See observation l_
   and Equipment      and disposals in a timely manner.
                                                                                         I
                      In addition, the asset management system
                      was not integrated with the general ledger


2_ Undelivered        Testing of undelivered orders disclosed a             Open             See observation 2.
   Orders             significant number of obligations that had
                     I no activity for lengthy periods of time.      I I             I                            I


3_Manualof            BBG had not completed updating its                   Closed            BBG finalized its
  Administration      Manual of Administration,                                              Manual of
                                                                                             Administration
                                                                                             during FY 2008,


4. Government         Cardholders were not correctly entering               Open             See observation 3.
   Purchase Cards     purchase dates in their purchase logs.
                      Cardholders seemed to be using information
                      from credit card statements to complete the
                      purchase logs instead of completing the logs
                      when the purchases were made.
                                                                                                             Attachment 2
                                                                                                               Page 1 of 4




         Bl{()Vf)CVST[Nt; Il{HIW OF (;OVEll:\ORS
         ,i:\ITEn STAn" OF ,WERILY




                                                                         :\1an:h 5. 2009




I ht.: ilnlloub!e lli.lmkl VI (iL'lsd
Acting, lnspcdor ('jenera!
ornec     or
           lnsp(;:(i()r Cien.;mJ
C:,S. [')cpar!nwnf urSlatl'
\Vi'ishingh'n,   J),c. 2052~>030k




I am \vri!Jng in    r~~p{msc    to your n:quesl for CI)l11ll1l.:n1.S on th.... dran mHn<lgcmenl lett.:!
rdilled to the audit of the Broadcasting lh:ml of Govcmors' ZOOS and 21)07 fimmcial
:-,1:w:menls. \)"ie have fl.:yic\v<;:d the observations :md conclusions of the independen1
ConIT<l~toL    J,conard G, Bimbaum lind Company, LLP, and provide detailed n:spons.:s to
..:<.\<.:11 \lethe issues identllied by tlle <.luJilors.

I :JS$urc you lhal. we [,Ike the n'::conlmenuurions seriously ilnd will nwnihlf          IhL~   progfi.:SS
maJe 10 addr..:s:> <:<1ch recommcnJutlol1.

 I h;mk you fix the llppI,lrtulllly to responJ,




.land K, Stormes
('hier Fill;)nci~l! Orticer




c:c: 	     DOli~ ikrlllctl. Financial Operations Dirertor, Broadcasting Bourd            ()j'(JOVCll1llr:;
           I ,c<;iic J\. 1,eipcr, L(;n!)ilrd C" Himbaum and Cnmpany. LLJl
                                                                                                           Attachment 2
                                                                                                             Page 2 0[4




                                BnlllUolsting Board of Guvernnrs 

                                 Audit of Fiullnci.lf Statements 

                                  September 30. 2007 and 200S 


                SSG Responses ttl the Audit Observations and Conclusions


I. PrtlfH:rtv. Plant iHld [(quipmcnt (PPE)


Recommendation: 

We recommend ihat BBG: 

   • ImproH i15 controls over the rimclim'ss of ret'ording propcrt;\-' datu,
   • 1kvdop an inferfan' between the asset m;magcment s,Y'stcnt lmd the general
         kdgcr, and 

         Ensure that accurate :mu cllmplcte dOl;umcntatioll related tu eapitnlasscts i.'\ 

         maIntained, 


BBG Response;
The BBC has improved its t:(\ntwls regarding the proper anu timely recording of prop..:rty
data. On January 18.2003, the BB(; adopted Important chang.es to its PPE Manual                    or
Op.::ralionc: amI :\dmtllistrmion U-do.'\) estnbUshing an Agency Property \,bnagcrnent
Dfticc jn assist Propcrl), Control UDlccfs and Accountable Onieer!; manage BBG
prnp..::rty and updah: the Pl"OPCrty !nvl:ntory Processing System (PIPS). Thmugh the
recently adopted MOA for PPE, the liBG has strcnglili.'J)cd requirements for document
retention :md verification and assig:ncd spl.!l.:ific rcspom;ihilitiL's j()J0 documcmation
maintenance to Prnpeny Cuntrol Oniccrs and Accountahle Officers.

To... \,10A ab) establishes pmcedurt's to ensure incoming deliveries arc properly and
timely recorded in the PIPS system. quarterly entries 3rc made fur <l:.sd acquisitions.
dispositinns and depreciation. and physical inventories afC conducted ;mnually. To
!urlh~r H:vie\\ the w':CUntcy or rhr: PIPS cnlry, the BBG is eomparing the quarterly ass('!
i.l~qtLisiti()n entries in PlPS \\'jlh th(O (\(.'!lli/.<:~l rurch~lscs record..:J within thl: \'lomentum
llnanci,li management S)'Sknl.


2. lindelivered Ot'ders

Rccvmmcndatinn: 

\Yr rccommcnd that obligations hc rcviewed in a structured mllllner and on H 

regular basis to permit dcohliglltion lHal rcprogl"tuuming of utilised amounts. 


BBG Response: 

The OffiCi:: orlh~ eFO facilitates the rc\"i0W of"unliquiJ.atcd obJig;11iom; and n:quests 

program nn!C~'S to reconci]C their ul1ddivewd onk'rso j\·lunthly, the Officv ,)j" the C1"O 

rC"\'1<:\\,1' the open obligations. r:mudm[y s<."h:cts a smnplc, and requests tlwr thl,,! program 

ofik...:s provide the :mprnrtin~ docu!11cntalinn ror Ihcsc obligations. Simultan<.'ously,lhc 

                                                                                                        Attachment 2
                                                                                                          Page 3 of4




OfJil.:C   oftb~   eFO conlinues to work with each Program Office 10 determine \vhether rhe
unliquidated       O[l!igul~Olb   can   h~   dWbligmcd.


3. Go\'cmment           Purch~lse       Canl"

HCl'ommcntilltion: 

We recommcnd th;.)! BBG manugement institute cffective internal control \lnd 

oversight proccdu re," 1'1) ddcr and di.~cn\'cr crrollt'OUS use of the government
purrhastc tcard.

BUG Response:
BBG requires:Jl! credit card sta!e111cnts, purchase ](lgS. anJ         rC(x~irts be submitter! [0 the
Ofll,cC' of t,'jn:mcial Operations and rec.:tnci1cd on n montbly basis. rho;: linG Purchase
Card l\:l:1!1ngcr has jnslruc[\."d carJliokkrs In forward :l copy of their purchiLsc log !o the
Purchase Card :"li.ln;:;g~r who will revic\\' t)H'::'C and \'erif~y [lint thL.: apprnpriak Approving
Ofiici;ils ilaVG signed the logs. In adJitiOll, dassroum training is scheduled ior aU
Approving Oni<:ials to c-nSllf¢ con:;istcncy in the purchase card intCrHll! conlml and
oversight procedure's.


4. Gnmts Management

Rctnmmtudation:
Wl' recommlJnu that BBG Mren~{hcl1 its policies and procedurcs rcg:lnling the
ovcrsight of gnmtces' financial activity to ensure full compliance ,,,ith OJ\iIB
Circular A~110.

BBG Rcsp()n.~c:
The BBG is mindful thuL:I:; Ul¢ granting agency, it is required by the A~ll() tn minimize
the lime elapfiing bt:tween the lramifer of funds to the gran1cc and disbursement by ttl..;
grantee. The HBU: 11:::s ('st::tbli~hcd pr(lCedllfl~s to address this n:'quirenwI1t aou Jt the same
timl' ensure tll::lf each grantee ha\): adcqu<lte rl'sourccs lor on-going, ope_fo,(lons, The BBG
makes monlh!) pGymcnts to each granlcl" bJsed on a linancial plan that n:!lccts the
llntil'ipalC'd nhligatiolls llnd di:;burs..::mcms hy month. Each grantee's SF·269, SF-2n.
and Slilt('m~'nl nfObligcHi(lDS and Disbursemcnts an.' reviewed llnd compared yyith the
pl:m. The OUice ufthl.' CFO fdipws up iLl) n<.'ccssnry with 111<: gnmkcs, In address
concerns related 10 signific<ll11 i.j,c:viatiollS hetwt:.:n the ac!.tla! ohligations :Jnd
dishur:->LorJ)cnl and the pbn. In additiuD. tho:: Ollie\.' of the ero meets '.vjth each grantee on
<1 quarterly basis to discuss hHdg~! and tlnancial slantS issues. The Ofllc(: oflhc ero has
Ulsfl met with th..; granke 1ludiwf5 to discuss p01ential issues and areas for irnpwvellWIlL
WI.' \vili tt\'icw our policies and pl'OcZ'dufCS In iJentify areas f{)f potential improvement,
anJ wili (onrintlc ttl work with the grantees to ensure full compliance with O\-1B Circular
;\-110.




                                                          2
                                                                                                      Attachment 2
                                                                                                        Page 4 of4




S. Information Seclirit'\-"

Rccommt:ndaliou: 

We recommend that BBG continue to ::-Illocatc staff time and funding to bring the 

Hf!CIJCY into full compHance, as tiirccit.'d by 01G, 


BBG Response: 

The agency     c()ntjnU:~5 tn :tl1ocatc staff and funding to enhrU1CC our ih]] compliam:e \-Vilh 

FIS\'lA provisions anJ regubtioIlS. Although there wen: exceptions tiw some nne; 

syslcms to F1S)"1r\ cmnpliancc. l1x" core' Jil1<-lnci<ll system is fully compliant ;md has a 

current C.:-rtifil..'llti(ll1 and /\ccr~~dila!ion. 



6. Pavroll COOlpli,mcc

Rct:ommenuation: 

\Vc recommend       ttlll!   HBG takc s.teps to t'usurc   ,~ompliance    with   pllyroll~rdated 

Icgi!.'lation. 


BHG Respom;c:
lhe BBG undcT.IZtamls that it musl cnsurc eompliam:c with paywll-rela!C:d kgislatloll, and
believes th3l it materially compiles. Of the sl)itcen exceptions identified during the 200&
:mJit by the audif()rS, only one was vcri!icd a.s an CXl,;CptiOll. The other fii'h:l:n were
l'csolh'd utter the BI3G providd documentation and explanations rclaicd to thcse
::iampks in Audit Response 84. The BBG recognizes that the documentation and
expLin31iOlB were no! provided to lhe auditors until October 21, 2008, making it difllcult
(or thl~ ~1lIdib)rS to I.'omplerc their ,U1;)!ysis of the except.ions in a timely manner. Thtc
BHO \\ill incfl.'ase its dTorts hl\1.:urds pruvklil1g auditors \\"ilh more timely res fxmse5.


7. Snl1-P('fSlmnci Exncnsc::I

Rccommmdlltion: 

We recommend that BBG take steps to             (~()rr('dly   rccnnJ   exp('nsl~s   in the proper 

period, 


BBC RtspOnsl':
The Onicc Oflht.: CFO preparc!') an annua! do~ing memonmdu11l dislribulcu t(1 the
Prugram Of1\CI.:s (lul1ining dC::Jdlin;;:s for processing payments at ycar*l'nd. In this memu.
the Ofllcc (lfthe .(,FO re.quests tIlt: Program Offices to submit all invoices n.:cein..'J prior
tn S'.:pICmber 30 to till' P~lym('nt:; OfTicc by close of business on Scptcmber 30
                  111                                                                  lh
                                                                                          Tlle
financiaJ n:poning hranch then prcr;m~" an adjusJing entry to rccord tbe expenses and
rl'laku lia~ililY. In FY2001( the HBC; recorded $38,000 in unrxlid invoice». ·1l1~ OfJi.ce
nflhe ern will cuntinue to \\'01'1-: '>\,1rh Program ()fTicc~ 10 ensure ull invoices arc
promptl)' .:;uhmillcd for prnu..-ssin!!.
